<html>
<title> - A CALL TO ARMS: A REVIEW OF BENEFITS FOR DEPLOYED FEDERAL EMPLOYEES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
  A CALL TO ARMS: A REVIEW OF BENEFITS FOR DEPLOYED FEDERAL EMPLOYEES

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON FEDERAL WORKFORCE,
                    POSTAL SERVICE, AND THE DISTRICT
                              OF COLUMBIA

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 16, 2009

                               __________

                           Serial No. 111-40

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform



                  U.S. GOVERNMENT PRINTING OFFICE
55-103                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
JOHN F. TIERNEY, Massachusetts       MARK E. SOUDER, Indiana
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      LYNN A. WESTMORELAND, Georgia
JIM COOPER, Tennessee                PATRICK T. McHENRY, North Carolina
GERALD E. CONNOLLY, Virginia         BRIAN P. BILBRAY, California
MIKE QUIGLEY, Illinois               JIM JORDAN, Ohio
MARCY KAPTUR, Ohio                   JEFF FLAKE, Arizona
ELEANOR HOLMES NORTON, District of   JEFF FORTENBERRY, Nebraska
    Columbia                         JASON CHAFFETZ, Utah
PATRICK J. KENNEDY, Rhode Island     AARON SCHOCK, Illinois
DANNY K. DAVIS, Illinois             BLAINE LUETKEMEYER, Missouri
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
------ ------

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

Subcommittee on Federal Workforce, Postal Service, and the District of 
                                Columbia

               STEPHEN F. LYNCH, Massachusetts, Chairman
ELEANOR HOLMES NORTON, District of   JASON CHAFFETZ, Utah
    Columbia                         JOHN M. McHUGH, New York
DANNY K. DAVIS, Illinois             MARK E. SOUDER, Indiana
ELIJAH E. CUMMINGS, Maryland         BRIAN P. BILBRAY, California
DENNIS J. KUCINICH, Ohio
WM. LACY CLAY, Missouri
GERALD E. CONNOLLY, Virginia
                     William Miles, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 16, 2009...............................     1
Statement of:
    Farrell, Brenda S., Director, Defense Capabilities and 
      Management, U.S. Government Accountability Office; Marilee 
      Fitzgerald, Director, Workforce Issues and International 
      Programs, Office of the Deputy Under Secretary of Defense 
      for Civilian Personnel Policy, U.S. Department of Defense; 
      Steven A. Browning, Principal Deputy Assistant Secretary, 
      Bureau of Human Resources, U.S. Department of State; Jerome 
      D. Mikowicz, Deputy Associate Director, Pay and Leave 
      Administration, Strategic Human Resources Policy Division, 
      U.S. Office of Personnel Management; and Shelby Hallmark, 
      Acting Assistant Secretary, Employment Standards, U.S. 
      Department of Labor........................................     9
        Browning, Steven A.......................................    43
        Farrell, Brenda S........................................     9
        Fitzgerald, Marilee......................................    29
        Hallmark, Shelby.........................................    57
        Mikowicz, Jerome D.......................................    51
    Shay, Jonathan, M.D., Ph.D.; and Susan R. Johnson, president, 
      American Foreign Service Association.......................    77
        Johnson, Susan R.........................................    82
        Shay, Jonathan...........................................    77
Letters, statements, etc., submitted for the record by:
    Browning, Steven A., Principal Deputy Assistant Secretary, 
      Bureau of Human Resources, U.S. Department of State, 
      prepared statement of......................................    45
    Connolly, Hon. Gerald E., a Representative in Congress from 
      the State of Virginia, prepared statement of...............     4
    Farrell, Brenda S., Director, Defense Capabilities and 
      Management, U.S. Government Accountability Office, prepared 
      statement of...............................................    12
    Fitzgerald, Marilee, Director, Workforce Issues and 
      International Programs, Office of the Deputy Under 
      Secretary of Defense for Civilian Personnel Policy, U.S. 
      Department of Defense, prepared statement of...............    31
    Hallmark, Shelby, Acting Assistant Secretary, Employment 
      Standards, U.S. Department of Labor, prepared statement of.    59
    Johnson, Susan R., president, American Foreign Service 
      Association, prepared statement of.........................    84
    Lynch, Hon. Stephen F., a Representative in Congress from the 
      State of Massachusetts, prepared statement of..............     2
    Mikowicz, Jerome D., Deputy Associate Director, Pay and Leave 
      Administration, Strategic Human Resources Policy Division, 
      U.S. Office of Personnel Management, prepared statement of.    53
    Shay, Jonathan, M.D., Ph.D., prepared statement of...........    79


  A CALL TO ARMS: A REVIEW OF BENEFITS FOR DEPLOYED FEDERAL EMPLOYEES

                              ----------                              


                     WEDNESDAY, SEPTEMBER 16, 2009

                  House of Representatives,
Subcommittee on Federal Workforce, Postal Service, 
                      and the District of Columbia,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:03 p.m., in 
room 2154, Rayburn House Office Building, Hon. Gerald E. 
Connolly presiding.
    Present: Representatives Norton, Cummings, Connolly, and 
Bilbray.
    Staff present: William Miles, staff director; Aisha 
Elkheshin, clerk/legislative assistant; Jill Crissman, 
professional staff member; Daniel Zeidman, deputy clerk/
legislative assistant; Dan Blankenburg, minority director of 
outreach and senior advisor; Adam Fromm, minority chief clerk 
and Member liaison; Alex Cooper, minority professional staff 
member; and Lt. Glenn Sanders, minority Defense fellow.
    Mr. Connolly. The hearing will now come to order. And I 
welcome Ranking Member Bilbray of California and members of the 
subcommittee, hearing witnesses, and all those here in 
attendance.
    The purpose of the hearing is to examine existing policies 
and the range of employee benefits available to Federal 
civilian employees serving in designated combat areas. The 
Chair, ranking member and subcommittee members will each have 5 
minutes to make opening statements, and all Members will have 3 
days in which to submit statements and additional questions for 
the record.
    I would like to welcome everybody here to this afternoon's 
subcommittee hearing intended to explore critical yet 
frequently forgotten issues relating to the pay, protection, 
and other personnel policies of Federal civilian employees 
serving in high-risk environments abroad.
    Although our chairman, Congressman Stephen Lynch, could not 
chair this hearing, his interest in this policy area is the 
motivation for this hearing. Chairman Lynch has requested that 
his full statement for the hearing be submitted for the record. 
Without objection, it is so ordered.
    [The prepared statement of Hon. Stephen F. Lynch follows:]

    [GRAPHIC] [TIFF OMITTED] T5103.001
    
    Mr. Connolly. As an advocate for the Federal community 
myself--I represent 56,000 Federal workers and maybe as many 
retirees--I'm especially pleased to serve as Chair of today's 
hearing, ``A Call to Arms: A Review of Benefits for Deployed 
Federal Employees.''
    Today's hearing affords us the opportunity to examine a 
host of benefit challenges and discrepancies currently 
confronting deployed Federal employees. Federal workers who 
serve our Nation in the combat areas of Iraq and Afghanistan 
and other war zones deserve assurance that the Federal 
Government has a uniformed strategy in place to handle both 
pre- and post-deployment issues no matter the employing agency.
    With tens of thousands of Federal employees having served 
overseas in combat theater in this decade, it greatly disturbed 
me to learn this from comments a former deployed Federal 
employee, made who was gravely injured by enemy fire last year 
in Iraq, that: The military saves your life, gets you home, and 
then it's totally up to you.
    In addition to ensuring seamless medical care upon return 
and efficient and straightforward processing of Workers' 
Compensation claims, I believe Federal agencies need to do more 
in support of these individuals stateside, following their 
deployment, in the areas of medical screening, mental health 
support services, and then dealing with their home and other 
agencies when filing for benefits and seeking treatment.
    Unlike their military counterparts, deployed Federal 
employees do not operate within an established framework, and 
often have to navigate bureaucratic hurdles to get their health 
care coverage, unaided. Given the expanding role of Federal 
civilian employees in support of ongoing military operations 
and statecraft endeavors, agencies are in a position of needing 
to recruit Federal workers who are willing to serve in hostile 
environments. As a result, addressing pay inconsistencies, 
leave flexibilities, and holes in post-deployment medical care 
and Workers' Compensation are key to guaranteeing such an 
abundant and dedicated work force.
    I would like to thank the witnesses for appearing here 
today as we take a hard look into what's being done and what 
options may need to be considered to guarantee that deployed 
Federal employees, brave men and women who serve their country, 
and their family members are receiving the proper support and 
treatment they deserve from a grateful Nation.
    [The prepared statement of Hon. Gerald E. Connolly 
follows:]

[GRAPHIC] [TIFF OMITTED] T5103.002

[GRAPHIC] [TIFF OMITTED] T5103.003

    Mr. Connolly. I now call upon the ranking member, Mr. 
Bilbray, for any opening statement he may have.
    Mr. Bilbray. Thank you, Mr. Chairman.
    Mr. Chairman, let me ask for unanimous consent to introduce 
a written statement.
    Mr. Connolly. Without objection.
    Mr. Bilbray. And basically you said it very appropriately. 
I think that we've just got to understand that the rule of law 
has always been a cultural given, at least we assumed to have 
been, since Mesopotamia started using a concept on clay 
tablets. So I think that we need to have some kind of 
understanding of what is the restraints, where are the limits, 
and where are the opportunities. And people should know that up 
front. We shouldn't be making the rules as we go on. And I 
think the concept of written law and regulation is just not 
only a cultural given in our society, it's common decency. And 
so I will look forward to this hearing.
    I think that the new Obama administration's commitment to 
creating a civilian surge in Afghanistan really is an example 
of where we need to get our act together on this, we need to 
set out these lines. The new administration obviously expects 
this to be a critical part of our national presence around the 
world, so we need to make sure that presence is under the rule 
of law.
    I yield back, Mr. Chairman.
    Mr. Connolly. I thank the gentleman from California.
    I now call upon the gentleman from Maryland, Mr. Cummings.
    Mr. Cummings. I want to thank the chairman for calling this 
hearing today. And certainly I thank our witnesses who have 
come today to examine policy disparities that exist across 
Federal agencies that deploy civilian employees to serve our 
country in deployed environments.
    Since 2001, more than 41,000 civilians have served or are 
currently serving in Iraq or Afghanistan. One of the realities 
of fighting concurrent wars in both Iraq and Afghanistan is 
that our military cannot conduct its missions alone. The 
military has to use every available soldier on the front lines. 
Additionally, the nature of how we fight our current enemy has 
caused us to rely more heavily on civilians not only to provide 
assistance in service-support roles, but also to be actively 
engaged in the day-to-day stability and reconstruction efforts 
alongside our troops.
    Rightfully, we go out of our way to ensure that our 
deployed military troops receive the proper medical and 
compensation benefits while they fight for our Nation. Well, 
our deployed civilian population should be no different, as 
they face dangerous situations also.
    Studies have found disparities with approving Workers' 
Compensation and post-deployment medical screening affecting 
benefits. Regardless of whether a deployed civilian originates 
from the Department of Defense, State Department, or the U.S. 
Agency for International Development, these volunteers are 
placed in harm's way and deserve equitable treatment when it 
comes to medical care benefits and compensation.
    DOD and State already have the infrastructure to provide 
medical care while civilians are deployed in the theater of 
operations; but unlike the military, when our civilians return 
home, their medical wellness is forgotten. We mandate that the 
military complete post-deployment health assessments to 
identify symptoms related to posttraumatic stress disorder; 
yet, DOD and State are the only agencies that require medical 
screening of civilians upon return from deployments. Therefore, 
we need to do a better job of communicating the policies that 
govern medical care, benefits, and compensation for our 
deployed civilians.
    As we have learned from casualty reports, there are 
numerous risks that a civilian accepts when he or she decides 
to work in a combat zone. It is no secret that money and 
benefits are lucrative enticements for agencies to attract 
individuals willing to deploy. As such, individuals should 
receive comparable compensation commensurate with their skill 
levels and the amount of risk involved in their daily 
functions.
    Finally, understanding that Federal agencies operate under 
different pay systems, compensation packages will differ to a 
degree, but the Office of Personnel Management should provide 
overarching compensation and benefit policy for deployed 
civilians and the authorities given to the agencies for 
implementation. Given the course of our military, I do not 
foresee a change in the near future on our reliance of 
civilians on the battlefields. As we continue a ``whole of 
government'' approach to stabilizing and reconstructing other 
regions around the world, we must be creative in utilizing 
existing systems to meet our current challenges. I think that 
it would be worthwhile to expand DOD and State procedures to 
incorporate the civilian aspect.
    And, Mr. Chairman, with that I thank you again for calling 
this hearing, and I yield back.
    Mr. Connolly. I thank the gentleman.
    At this time, I would ask the witnesses to stand. It is 
committee policy that all witnesses before this committee are 
sworn in.
    [Witnesses sworn.]
    Mr. Connolly. Let the record show that each witness 
answered in the affirmative. I thank you.
    If I may give a brief introduction to our panelists.
    Brenda Farrell was appointed Service Director in GAO's 
Defense Capabilities and Management Team in April 2007. She is 
responsible for military and civilian personnel issues, 
including those related to GAO's high-risk area personnel 
security clearances. Ms. Farrell began her career at GAO in 
1981 and has served in a number of issue areas associated with 
national security issues.
    Marilee Fitzgerald was appointed as the Director of 
Workforce Issues and International Programs in the Office of 
Deputy Under Secretary of Defense for Civilian Personnel Policy 
in June 2005. Ms. Fitzgerald is responsible for the oversight 
and approval of the Department of Defense human resource 
policies and programs that affect over 700,000 employees 
worldwide. She also serves as the Principal Deputy to the 
Deputy Under Secretary of Defense for Civilian Personnel 
Policy.
    Steven Browning is Ambassador Steven Browning, a career 
member of the Senior Foreign Service, holding the rank of 
Career Minister. Ambassador Browning assumed his duties as 
Principal Deputy Assistant Secretary of State in the Bureau of 
Human Resources in August 2009. Most recently, Ambassador 
Browning served as Ambassador to the Republic of Uganda. Prior 
to that, he served as the Minister Counselor for Management in 
the U.S. Embassy in Baghdad.
    Robin Heard. Robin Heard is the current Deputy Assistant 
Secretary for Administration at the U.S. Department of 
Agriculture. Ms. Heard also served as Acting Budget Analyst at 
OMB. She is not with us today, but I believe that there is 
somebody here from the Department of Agriculture who can answer 
some questions. Is that correct?
    Voice. I am here.
    Mr. Connolly. OK. Jerome Mikowicz is the Deputy Associate 
Director for Pay and Leave Administration with the Strategic 
Human Resources Policy Division of the U.S. Office of Personnel 
Management. He is a career member of Senior Executive Service 
and manages the Center for Pay and Leave Administration 
responsible for administering dozens of governmentwide 
statutory authorities related to pay, leave, work, and--work 
schedules for civilian Federal employees.
    And finally, but not least, Shelby Hallmark. Shelby 
Hallmark is the Acting Assistant Secretary for Employment 
Standards Administration of the U.S. Department of Labor and 
Director of the Office of Workers' Compensation Programs, and 
is also the permanent OWCP Director.
    Welcome, all of you.
    Before we begin hearing from members of the panel, Ms. 
Norton, the Delegate from Washington, DC, has joined us. And I 
now call on the gentlelady for her opening remarks. Welcome.
    Ms. Norton. Thank you very much, Mr. Chairman. I wanted to 
be here for as long as I could.
    This subcommittee has done an excellent job of taking care 
of Federal employees at home, but our own work indicates that 
we've not been nearly--the Congress, at least, has not been 
nearly as vigilant when we deploy--and that's the right word 
for it--civilian workers abroad.
    Whenever I visit abroad, in fact the first people we come 
in contact with are Federal employees, just like the ones who 
are our own constituents here, except there they are far away 
from home. And more and more of them have been deployed to 
combat zones and serve under what can only be called, Mr. 
Chairman, hardship posts. Try going to parts of Africa and 
Iraq, other parts of the Mideast which are under fire, and you 
are categorized as civilian, something happens to you there, 
and you don't have the same access that those who courageously 
serve us in the Armed Forces have always had, and so 
unintentionally there is a distinction among our Federal 
employees. We are responsible for them not just in this 
country, but most especially when they are abroad.
    And, Mr. Chairman, I recall speaking with employees who had 
been deployed for some time in various parts of the Mideast, 
and were astounded to learn--one of the complaints indeed was 
that there has to be turnover. There's too much turnover; that 
our employees come for a while, and then they go. Well, the 
reasons are very clear. This is hardship with capital letters. 
They are away from home, from family. And then they have 
uncertain benefits, particularly when they incur unexpected 
events in their own lives.
    We have to make it attractive to go abroad. We have to make 
it less of a hardship to go abroad. This is not Paris, my 
friends. These are not posts in the great cities that are 
legendary in history where in your off hours you can go 
sightseeing. I have seen Federal employees in places where 
there was nothing in the evening. I hope they like books. And I 
think because our employees tend to be fairly bookish and 
intelligent and intellectual, they use the time, of course, to 
good effect. We need to pay the kind of attention you, Mr. 
Chairman, and this subcommittee is paying now.
    And I will stay for as long as I can, but I wanted to be 
here to thank you and the subcommittee, and particularly to 
thank the witnesses who come to educate us about these out-of-
sight, out-of-mind employees of the United States of America 
serving their country. Thank you again.
    Mr. Connolly. I thank the gentlewoman from the District of 
Columbia, and thank her for her commitment to all of the 
employees of the Federal Government.
    Witnesses have been sworn in. I want to just say to 
everybody that your entire statement has been entered into the 
record. Everybody has 5 minutes in which to summarize their 
testimony. The green light will go on to indicate that your 5 
minutes has begun; the yellow light means you have 1 minute 
remaining to complete your statement; and the red light 
indicates that the hook is coming.
    So if we can begin with you, Ms. Farrell.

STATEMENTS OF BRENDA S. FARRELL, DIRECTOR, DEFENSE CAPABILITIES 
AND MANAGEMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE; MARILEE 
   FITZGERALD, DIRECTOR, WORKFORCE ISSUES AND INTERNATIONAL 
 PROGRAMS, OFFICE OF THE DEPUTY UNDER SECRETARY OF DEFENSE FOR 
 CIVILIAN PERSONNEL POLICY, U.S. DEPARTMENT OF DEFENSE; STEVEN 
 A. BROWNING, PRINCIPAL DEPUTY ASSISTANT SECRETARY, BUREAU OF 
HUMAN RESOURCES, U.S. DEPARTMENT OF STATE; JEROME D. MIKOWICZ, 
   DEPUTY ASSOCIATE DIRECTOR, PAY AND LEAVE ADMINISTRATION, 
   STRATEGIC HUMAN RESOURCES POLICY DIVISION, U.S. OFFICE OF 
  PERSONNEL MANAGEMENT; AND SHELBY HALLMARK, ACTING ASSISTANT 
   SECRETARY, EMPLOYMENT STANDARDS, U.S. DEPARTMENT OF LABOR

                 STATEMENT OF BRENDA S. FARRELL

    Ms. Farrell. I can project, but I think this will be 
better.
    Mr. Connolly, members of the subcommittee, thank you for 
the opportunity to discuss our recent report on actions needed 
to better track and provide timely and accurate compensation 
and medical benefits to deployed Federal civilians.
    As DOD has expanded its involvement in overseas military 
operations, it has grown increasingly reliant on its Federal 
civilian work force to provide support in times of war or 
national emergency. Other Federal agencies also play an 
important role in the stabilization and reconstruction of at-
risk countries and regions consistent with the collaborative 
``whole of government'' approach. Therefore, the need for 
attention to policies and benefits that affect the health and 
welfare of these individuals becomes increasingly significant.
    My main message today is that, given the importance of the 
missions these civilians support and the potential dangers in 
the environments in which they work, Federal agencies need to 
take additional actions to ensure that the compensation 
packages associated with such service are appropriate and 
comparable, and that these civilians receive all the 
compensation and benefits to which they are entitled.
    My written statement is divided into three parts. The first 
addresses compensation policies for deployed civilians. 
Although policies concerning compensation are generally 
comparable across the six selected agencies that we reviewed, 
we found some issues that affect the amount of compensation 
that they receive depending upon such things as the pay system 
and the accuracy, timeliness, and completeness of the 
compensation.
    For example, two comparable civilian supervisors who deploy 
under different pay systems may receive different rates of 
overtime pay, because this rate is set by the employee's pay 
system and grade or band.
    In April 2008, a congressional committee asked OPM to 
develop a comprehensive benefits package for all deployed 
civilians and recommend enabling legislation, if appropriate. 
At the time of our review, OPM had not done so.
    Also, implementation of some policies may not always be 
accurate or timely. For example, we estimate that about 40 
percent of the deployed civilians we surveyed reported 
experiencing problems with compensation, including not 
receiving danger pay, or receiving it late, in part because 
they were unaware of their eligibility or did not know where to 
seek assistance.
    The second part of my written statement addresses the 
medical benefits. We found some issues with policies related to 
medical care following deployment and with Workers' 
Compensation and post-deployment medical screenings that affect 
the benefits of deployed civilians.
    For example, while DOD allows its treatment facilities to 
care for non-DOD civilians following deployment, in some cases 
the circumstances are not always clearly defined, and some 
agencies were unaware of DOD's policy. Because DOD's policy is 
unclear, confusion exists within DOD and other agencies 
regarding civilians' eligibility for care at military treatment 
facilities. Thus, some civilians cannot benefit from the 
efforts DOD has undertaken in areas such as posttraumatic 
stress disorder.
    Also, civilians who deploy may be eligible for benefits 
through Workers' Compensation. Our analysis of 188 such claims 
revealed some significant delays resulting in part from a lack 
of clarity about the documentation required. Without clear 
information on what documents to submit, applicants may 
continue to experience delays.
    Further, while DOD requires medical screenings of civilians 
before and after deployment, State requires screenings only 
before deployment. Prior GAO work has found documenting the 
medical condition of deployed personnel before and after 
deployment was critical to identifying medical conditions that 
may have resulted from deployments.
    The third part of my written statement addresses the 
identification and tracking of deployed civilians. Each of the 
selected six agencies included in our review provided us with a 
list of deployed civilians, but none had fully implemented 
policies to identify and track these civilians. DOD, for 
example, had procedures to identify and track civilians, but 
concluded that its guidance was not consistently implemented. 
While other agencies had some ability to identify and track 
civilians, some had to manually search their systems. Thus, 
agencies may lack critical information on the location and 
movement of personnel, which may hamper their ability to 
intervene promptly to address emerging medical issues.
    Mr. Connolly, that concludes my remarks. I would be pleased 
to take questions when the committee so desires.
    Mr. Connolly. Thank you so much.
    [The prepared statement of Ms. Farrell follows:]

    [GRAPHIC] [TIFF OMITTED] T5103.004
    
    [GRAPHIC] [TIFF OMITTED] T5103.005
    
    [GRAPHIC] [TIFF OMITTED] T5103.006
    
    [GRAPHIC] [TIFF OMITTED] T5103.007
    
    [GRAPHIC] [TIFF OMITTED] T5103.008
    
    [GRAPHIC] [TIFF OMITTED] T5103.009
    
    [GRAPHIC] [TIFF OMITTED] T5103.010
    
    [GRAPHIC] [TIFF OMITTED] T5103.011
    
    [GRAPHIC] [TIFF OMITTED] T5103.012
    
    [GRAPHIC] [TIFF OMITTED] T5103.013
    
    [GRAPHIC] [TIFF OMITTED] T5103.014
    
    [GRAPHIC] [TIFF OMITTED] T5103.015
    
    [GRAPHIC] [TIFF OMITTED] T5103.016
    
    [GRAPHIC] [TIFF OMITTED] T5103.017
    
    [GRAPHIC] [TIFF OMITTED] T5103.018
    
    [GRAPHIC] [TIFF OMITTED] T5103.019
    
    [GRAPHIC] [TIFF OMITTED] T5103.020
    
    Mr. Connolly. Ms. Fitzgerald.

                STATEMENT OF MARILEE FITZGERALD

    Ms. Fitzgerald. Thank you.
    Good afternoon, Mr. Connolly, Mr. Bilbray, Mr. Cummings, 
and Ms. Norton. I am here today representing the Secretary of 
Defense and all of our civilian employees who deploy to austere 
environments like Iraq and Afghanistan. On their behalf, let me 
thank you for your strong support of our programs and benefits 
that help compensate and provide incentives for our deployed 
work force.
    The Department of Defense civilian employees play an 
integral role in supporting our military members around the 
globe in all types of operations. Since 2001, more than 41,000 
civilians have served or are currently serving in direct 
support of our U.S. military operations, including 26,000 to 
Iraq and 7,900 to Afghanistan. We are proud of our brave men 
and women who have served. Their sacrifice, service, and 
experience are valued, respected, and recognized as career-
enhancing.
    Regrettably, our work force is not immune from the inherent 
risks of these missions. Some of our employees and their 
families have made the ultimate sacrifice for our country. For 
these brave injured and fallen civilians, for all their 
colleagues who have answered the call to serve, and for all 
those who will answer the call in the future, the Department is 
committed to ensuring these employees have the highest level of 
support and care as may be needed to serve our noble mission.
    The Department has learned that the dynamic and asymmetric 
21st century mission challenges require greater and more 
expeditionary capability within our work force. In response to 
these expeditionary missions, the Department developed a new 
framework through which an appropriately sized subset of the 
Department of Defense civilian work force is preidentified to 
be organized, trained, and equipped in a manner that 
facilitates the use of their capabilities for these operational 
requirements. These employees are collectively known as the 
Civilian Expeditionary Workforce [CEW].
    We have learned that our employees volunteer for these 
types of assignments primarily because of a desire to serve our 
country, to witness their results on the ground, to make a 
difference, and to engage in this type of work. They believe it 
is an honor and a privilege to serve our country and to support 
our warfighters, and, in return, they bring back broadened 
perspectives, critical experiences, and a deeper understanding 
of their role in support of our expanding missions. The men and 
women who answer this call are making a critical difference.
    Building a strong civilian expeditionary work force, 
however, also requires promoting the right incentives and 
benefits to help compensate for the inherent risks of these 
missions. Thanks to the strong support from Congress, we have 
been able to offer many additional financial incentives. They 
certainly include the 35 percent danger pay allowance and 35 
percent post differential, and allowances and benefits and 
gratuities comparable to those provided by the Foreign Service. 
That benefit was offered to all Federal civilian employees.
    They include such benefits as enhanced death gratuity, 
travel, home leave, and emergency visitation travel, and rest 
and recuperation trips. Our DOD civilians singled out the 
authorized R&R trips and the Foreign Service benefits as 
particularly critical to maintaining a level of effectiveness 
during these extended months of employment.
    We've have enhanced FEGLI options from the Congress, 
approved premium pay cap waivers, elimination of the aggregate 
pay caps. This incentive permits our deployed civilians to 
maximize their earning power in the year in which they are 
serving. In these economic times, this incentive has been most 
valued and appreciated.
    The Secretary of Defense Global War on Terrorism medal and 
the Defense of Freedom medal for those who are injured or 
killed in theater. This one is similar to those of the 
military's Purple Heart.
    In terms of medical screening and medical care for deployed 
civilians, the Department does take seriously the need to 
protect the health of our deployed civilians and to medically 
assess all those who serve our expeditionary requirements. And, 
as was stated earlier, prior to deploying all DOD civilians are 
required to obtain a physical examination. In addition, they 
are required to have a pre-deployment health assessment within 
60 days prior to their departure. These two pieces of 
information combined provide a baseline for wellness. Upon 
their return from deployment, the DOD civilians are required to 
have a post-health assessment within 30 to 60 days following 
their return from deployment and a health assessment and 
reassessment within 90 and 100 days from their return.
    We have also established the Armed Forces Health 
Surveillance Center, which now collects these data and is able 
to track and monitor the completion of both the pre- and post-
health assessments.
    The Department of Defense-established medical treatment 
policies assure civilians who become ill, contract diseases, or 
who are injured or wounded while deployed in support of U.S. 
military forces engaged in hostilities receive medical 
evacuation and health care treatment and services at our 
military facilities at no cost and at the same level and 
service.
    The Department looks forward to the opening of the National 
Intrepid Center of Excellence on the campus of the National 
Naval Medical Center in Bethesda, which will be the premier 
health care resource in the Department of Defense for 
psychological disorders as well as PTSD and traumatic brain 
injury.
    And, finally, we must address the critical role families 
play in support of our DOD civilians who deploy. The Department 
continues to strengthen its capacity to serve families of DOD 
civilians better. We require family care plans to ensure that 
there are powers of attorney in effect, designated 
beneficiaries, to ensure that our families are aware of and 
understand the benefits and entitlements provided to them 
through their spouses' employment.
    Mr. Connolly. Thank you, Ms. Fitzgerald.
    Ms. Fitzgerald. Thank you.
    [The prepared statement of Ms. Fitzgerald follows:]

    [GRAPHIC] [TIFF OMITTED] T5103.021
    
    [GRAPHIC] [TIFF OMITTED] T5103.022
    
    [GRAPHIC] [TIFF OMITTED] T5103.023
    
    [GRAPHIC] [TIFF OMITTED] T5103.024
    
    [GRAPHIC] [TIFF OMITTED] T5103.025
    
    [GRAPHIC] [TIFF OMITTED] T5103.026
    
    [GRAPHIC] [TIFF OMITTED] T5103.027
    
    [GRAPHIC] [TIFF OMITTED] T5103.028
    
    [GRAPHIC] [TIFF OMITTED] T5103.029
    
    [GRAPHIC] [TIFF OMITTED] T5103.030
    
    [GRAPHIC] [TIFF OMITTED] T5103.031
    
    [GRAPHIC] [TIFF OMITTED] T5103.032
    
    Mr. Connolly. And then we will get on to a round of 
questions and answers.
    Ambassador Browning.

                STATEMENT OF STEVEN A. BROWNING

    Mr. Browning. Thank you, Mr. Connolly.
    Mr. Chairman, Ranking Member Bilbray, Ms. Norton, Mr. 
Cummings, thank you very much for this opportunity to testify 
before you today. I appreciate your interest in the State 
Department's efforts, as well as those of our sister agencies, 
to support our employees serving in difficult and dangerous 
places, including Afghanistan and Iraq. I look forward to 
sharing with you some of the concrete steps we have taken to 
address the critical needs of our employees and their families.
    Under the leadership of Secretary Clinton, our men and 
women are working to renew America's leadership through a 
diplomacy that enhances our security, advances our interests, 
and demonstrates our values. They are doing inspiring work 
under difficult conditions.
    Currently there are over 900 positions where no family 
members or only certain categories of family members may reside 
because of dangerous conditions or other severe hardships. In 
2001, there were approximately 200 such positions. This steady 
increase in assignments to difficult and dangerous regions 
reflects the Department's concerted effort to send the Foreign 
Service wherever it is most needed. Our men and women are 
answering the Nation's call to service and putting their lives 
at risk for the American people.
    The call to serve has been a hallmark of the Foreign 
Service. We have fully staffed our missions in Iraq and 
Afghanistan with volunteers, volunteers who have stepped 
forward to serve in these highly dangerous yet critical 
missions.
    In recognition of their service, we offer a broad package 
of benefits, incentives, and support structures. This package 
has improved greatly since when I served in Iraq in 2004 and 
2005.
    Mr. Chairman, let me share with you some of the benefits we 
now offer to our employees serving in Afghanistan and Iraq that 
other agencies may also be able to extend to their employees: 
hardship and danger pay allowances, overtime or an equivalent 
payment, rest and recuperation or R&R trips, pay cap increases, 
and onward assignment preferences.
    Mr. Chairman, we also know that the medical and mental 
well-being of our employees is critical, as is support for 
their families during and after their assignments. To address 
those needs we have expanded the medical services available 
pre-departure, at post, and after completion of the assignment, 
and we expanded the scope of our Family Liaison Office to 
provide support to employees and family members during an 
unaccompanied tour. All employees assigned to Afghanistan and 
Iraq attend pre-departure training that familiarizes them with 
security issues unique to combat zone assignments. It alerts 
them to the causes and the signs of stress-related conditions, 
and it provides them with techniques for managing the stress of 
being in a war zone.
    Following any high-stress assignment, we conduct a 
mandatory high-stress outbrief that helps employees recognize 
posttraumatic stress disorder. Our Office of Medical Services 
established a Deployment Stress Management Program with a 
board-certified psychiatrist to serve as director, two social 
workers, and an administrative assistant. Additional mental 
health personnel have been assigned to the health units in 
Baghdad and Kabul.
    Employees who are identified as possibly suffering from 
stress-related disorders and who require treatment that is not 
available locally are assigned to a 6- to 7-week program of 
treatment conducted by our medical office. To support essential 
continued monitoring, we have developed an assessment system 
for Department of State employees who have served in combat 
zones to screen for PTSD through our Deployment Stress 
Management Program, and our Family Liaison Office has expanded 
in size to work with our families while the employee is serving 
in an unaccompanied tour.
    We are currently working with our colleagues at the Office 
of Personnel Management and the Department of Defense to 
examine the compensation benefits available to deployed 
civilians to ensure that it meets our needs for recruiting and 
retention. If changes are needed, the administration will put 
forth a comprehensive proposal to address the issues identified 
with the goal of regularizing authorities across the agencies. 
This interagency approach has made considerable progress, and 
we look forward to working with Congress to support all Federal 
civilian employees serving in zones of armed conflict.
    In conclusion, Mr. Chairman, we believe that our employees 
and their families deserve comprehensive support before, 
during, and after their overseas assignments. The need is 
particularly great for those serving at our most difficult and 
dangerous posts. The Department of State has worked hard to 
provide benefits and programs that support our employees, but 
we recognize that our work may never be truly done as we adapt 
to a changing world. Thank you for providing me with this 
opportunity to appear before you and the members of the 
subcommittee, and I look forward to receiving your questions. 
Thank you.
    Mr. Connolly. Thank you.
    [The prepared statement of Mr. Browning follows:]

    [GRAPHIC] [TIFF OMITTED] T5103.033
    
    [GRAPHIC] [TIFF OMITTED] T5103.034
    
    [GRAPHIC] [TIFF OMITTED] T5103.035
    
    [GRAPHIC] [TIFF OMITTED] T5103.036
    
    [GRAPHIC] [TIFF OMITTED] T5103.037
    
    [GRAPHIC] [TIFF OMITTED] T5103.038
    
    Mr. Connolly. Just an advisory. I am hopeful that we can 
hear the last two pieces of testimony before we break for 
votes. Votes are going to be called very shortly, they are at 
the last votes of the day, so we will take an appropriate break 
when we are notified of that and come back. Forgive the 
imposition, but it is the way of the world here in the House of 
Representatives.
    Mr. Mikowicz.

                STATEMENT OF JEROME D. MIKOWICZ

    Mr. Mikowicz. Representative Connolly, Delegate Norton, 
Representative Bilbray, on behalf of our Director John Berry, I 
want to thank you for inviting the Office of Personnel 
Management at this hearing today and for your commitment to 
Federal pay and benefits. We are deeply grateful for the 
service of Federal civilian employees deployed to areas of 
armed conflict. They put their lives in danger, and they work 
under extraordinary challenges to get the job done. OPM is 
committed to ensuring the government has fair and accurate 
compensation necessary to attract and retain an effective 
civilian work force.
    Federal civilian employees who are deployed to work in Iraq 
and Afghanistan and other overseas locations are entitled to 
compensation that is controlled by three factors, and these 
three factors influence the application of pay and benefits.
    First, deployed civilians continue to serve under normal 
pay system, and most pay and benefits are across the board, but 
some are entitlements, and some are discretionary 
flexibilities, but the flexibilities are determined on a case-
by-case basis. Entitlements include things like annual pay 
adjustments, step increases, overtime, and leave. Flexibilities 
are applied on a case-by-case basis. For example, the use of 
recruitment, retention, and relocation incentives are 
discretionary and may vary based on staffing needs.
    The rules provide for some exceptions overseas. For 
example, since deployment to a war zone is considered a life 
event, employees have an opportunity to elect different health 
insurance coverage or enhanced insurance coverage.
    The second factor is that multiple pay systems exist at 
home and overseas, and employees working side by side in close 
quarters in combat zones become very aware of these 
differences. These differences are often based on different 
mission and work force requirements and are the result of 
separate laws that have been authorized over many years. 
However, current law does allow agencies not otherwise covered 
by the Foreign Service Act to provide certain Foreign Service 
benefits to their employees serving in Iraq and Afghanistan, 
and this has been very helpful.
    The third factor is that the standardized regulations 
administered by the Secretary of State do provide a common 
framework for payment of allowances and differentials to all 
civilian employees overseas. Such payments include danger pay 
and post hardship differential, which, combined, are worth 70 
percent of basic pay in Iraq and Afghanistan.
    OPM itself administers two special temporary provisions 
affecting most civilian employees in Iraq and Afghanistan, and 
we are grateful that Congress has provided them. First, OPM 
administers a waiver that allows a higher premium pay cap 
ceiling on the amount of basic pay plus overtime and other 
premium pay. The higher cap permits the payment of premium pay 
that otherwise would not have been payable.
    Second, OPM also administers a waiver of the aggregate pay 
limitation, which means that in addition to base pay, employees 
can receive all of their Title 5 payments the year they earn it 
instead of having it rolled over to following calendar year. 
Normally the limit is the rate for Level I of the Executive 
Schedule, which is 196,700 currently.
    Now I would like to comment on some OPM initiatives. In 
June 2008, we issued a memorandum to Agency Chief Human Capital 
Officers, describing the existing pay and benefits available to 
civilian employees working in combat zones. OPM strongly urged 
Federal agencies to become informed of and to take full 
advantage of those authorities.
    In September 2008, OPM wrote to the Committees on Armed 
Services in the House and Senate concerning the National 
Defense Authorization Act. OPM supported providing appropriate 
benefits to employees in combat zones and the extension of 
existing temporary authorities. We continue to work 
collaboratively with DOD and State and other agencies to 
determine how we can provide better and more consistent pay and 
benefits, and this is a work in progress.
    So, in conclusion, for the changes that we find are needed, 
the administration will put forth a comprehensive proposal to 
address the issues identified. We believe that the outcome of 
this process will also help assure greater consistency in the 
compensation of employed civilians. We want to do all we can to 
ensure that the civilian employees who put their lives on the 
line for the American people are appropriately rewarded and 
supported by the Federal Government as their employer.
    Thank you for the opportunity to discuss this important 
issue. I will be happy to respond to your questions.
    Mr. Connolly. Thank you.
    [The prepared statement of Mr. Mikowicz follows:]

    [GRAPHIC] [TIFF OMITTED] T5103.039
    
    [GRAPHIC] [TIFF OMITTED] T5103.040
    
    [GRAPHIC] [TIFF OMITTED] T5103.041
    
    [GRAPHIC] [TIFF OMITTED] T5103.042
    
    Mr. Connolly. And finally, Mr. Hallmark.

                  STATEMENT OF SHELBY HALLMARK

    Mr. Hallmark. Thank you, Mr. Chairman, Ranking Member 
Bilbray.
    Mr. Connolly. Mr. Hallmark, you're going to have to speak 
into the mic. We can't hear you. Thank you. And if you can 
speak directly into that mic. I don't mean to suggest my 
hearing is going, but it would be helpful.
    Mr. Bilbray. So people hundreds of years from now can hear 
your sweet words.
    Mr. Connolly. None of us are getting any younger here.
    Mr. Hallmark. It's my pleasure to appear here today to 
discuss the Office of Workers' Compensation Programs' role in 
providing benefits to the brave Federal civilian employees who 
serve in Iraq, Afghanistan, and other dangerous areas around 
the world. We deliver services to these employees under the 
Federal Employees Compensation Act [FECA].
    Starting at the top with Secretary Solis, all of us at the 
Department of Labor are fully committed to ensuring that our 
deployed Federal colleagues and their families receive the care 
and compensation they deserve. We know they have undertaken 
assignments that involve significant hardship, substantial 
risk, and that their work is critical to the success of 
American efforts in the Middle East.
    OWCP has reached out to the Departments of Defense, State, 
and other agencies to see that Workers' Comp claims from these 
deployed civilians are handled promptly and appropriately, and 
to coordinate on related issues such as pre- and post-
deployment counseling. We will continue to work with our sister 
agencies to make further improvements in the administration of 
the FECA in this respect, and to assist where we can in the 
overall delivery of services and benefits to these deserving 
Americans.
    To ensure that claims from deployed employees are handled 
expertly, we have assigned that work to a special unit located 
in our Cleveland FECA district office. This unit has received 
special training and experience in dealing with various types 
of extraordinary claims, including those resulting from 
overseas injuries. They've developed ongoing relationships with 
their counterparts at the major overseas agencies, and they 
work closely with them.
    For example, as a result of a recent specific agreement put 
in place following an interagency meeting last year, our 
Cleveland staff now notify the employing agency whenever they 
find themselves at the point of needing to deny a claim because 
they haven't received the information they need to pay it. That 
allows the agency the chance to investigate, determine whether 
there is more information that they can help to provide, or if 
perhaps the injury is simply resolved.
    Cleveland has also relaxed their normal FECA timeliness 
standards for receipt of such documentation so that there is 
adequate opportunity to obtain that medical or other 
information that may be difficult to track down from an 
overseas location.
    As noted in my written testimony, FECA coverage for 
deployed individuals, although universal, extends to an 
extremely wide range of circumstances beyond the normal 
workplace nexus. This includes while eating, sleeping, and 
during travel and a whole range of other circumstances.
    In practice, the great majority of claims received from 
Iraq and Afghanistan are quickly and accurately handled and are 
approved. Of those that are not approved, the great majority 
involved injuries for which OWCP simply never receives any 
followup medical. On more severe cases, OWCP engages closely to 
address ongoing disability or complicated medical conditions, 
and assigns occupational nurses to assist such workers in 
navigating the medical delivery system and in returning to work 
when medically able to do so.
    GAO recently conducted a review of our FECA claims process 
for civilians injured in war zones. Their report included only 
two recommendations: One, suggesting that we provide a better 
explanation of the type of medical evidence required to support 
a claim for compensation, and another to speed the issuance of 
our regulations concerning the death gratuity which was enacted 
in the Defense Authorization Act of fiscal year 2008. That new 
FECA death gratuity provides $100,000 in benefits to specified 
survivors of workers killed while supporting a contingent 
operation such as Iraq or Afghanistan, and our interim final 
rule was published with respect to that gratuity on August 
19th, this past month, making that benefit fully operative for 
deployed civilian workers.
    With respect to the medical evidence issue, we agree with 
GAO's recommendation that we review those instructions that 
accompany our claim forms, and, in fact, we expect to issue a 
separate instruction form for use by deployed Federal employees 
within the next few weeks. This fact sheet will address 
coverage issues as well as the type of medical documentation 
needed in certain circumstances, and will be distributed 
through the key employing agencies as well as via the OWCP Web 
site.
    I would like to end by commending the actions reported by 
my colleagues today at Defense and State and at other agencies 
with respect to the overall health and safety of their 
employees. Complex issues such as PTSD need to be addressed in 
comprehensive ways, and many key services must come not after 
the fact from Workers' Compensation or medical assistance, but 
in advance via enlightened preparation and assistance on the 
part of the employer. In ensuring that workers get, for 
example, pre- and post-deployment screening and counseling, 
these agencies are serving their employees while they're 
maximizing their ability to perform both in the stressful 
environments and when they return, and they are reducing the 
likelihood of serious injury and trauma.
    Mr. Chairman, I would be glad to answer your questions.
    Mr. Connolly. Thank you, Mr. Hallmark.
    [The prepared statement of Mr. Hallmark follows:]

    [GRAPHIC] [TIFF OMITTED] T5103.043
    
    [GRAPHIC] [TIFF OMITTED] T5103.044
    
    [GRAPHIC] [TIFF OMITTED] T5103.045
    
    [GRAPHIC] [TIFF OMITTED] T5103.046
    
    [GRAPHIC] [TIFF OMITTED] T5103.047
    
    [GRAPHIC] [TIFF OMITTED] T5103.048
    
    [GRAPHIC] [TIFF OMITTED] T5103.049
    
    [GRAPHIC] [TIFF OMITTED] T5103.050
    
    [GRAPHIC] [TIFF OMITTED] T5103.051
    
    Mr. Connolly. And that buzzing you're hearing is a call for 
votes. I am going to start, and then we will--if Mr. Bilbray 
wants to go, he can, or we will recess and reconvene after the 
series of votes. And thank you all very much for your 
testimony.
    By the way, before we begin my 5 minutes, I know that if 
Chairman Lynch were here, he would want to announce that a 
wonderful bill has been introduced by myself and my colleague, 
my friend from California, Mr. Bilbray, H.R. 3264, the Federal 
Internship Improvement Act, and that this subcommittee would 
want to hold hearings on that act. And I know were he here, he 
would join Mr. Bilbray and me in committing to that and urging 
our staff to prepare for those hearings.
    Mr. Bilbray. And this was an unpaid advertisement.
    Mr. Connolly. That will teach him for putting me in the 
chair.
    OK. Let me ask first, Mr. Mikowicz, a little earlier an 
interagency working group was put together for Federal 
employees, civilian employees deployed overseas in combat 
areas. OPM at that time declined to chair that interagency 
working group. Why is that? And is that decision now up for 
reconsideration?
    And, Ms. Farrell, welcome your comments as well if you have 
any.
    Mr. Mikowicz.
    Mr. Mikowicz. Thank you.
    From the way I would characterize it is that we've had a 
very collaborative approach all along. One thing that you 
always have to consider is what's going to be your vehicle for 
introducing legislation. DOD Authorization Act certainly has 
been the vehicle for the premium pay cap and the waiver and for 
other provisions that are in there. The Foreign Service Act 
sometimes is another vehicle.
    DOD, obviously having the most employees that are directly 
affected in any single agency across government, took the lead, 
and we attended all the meetings. We were working along with 
them. The GAO report did come out, did recommend that we form 
an executive group or that we submit a legislative proposal.
    We have continued to work with the agencies. All of our 
meetings have not been at Department of Defense. Some have been 
at State. And we are all working for the same end product. So I 
think, from OPM's point of view, we will be looking at interest 
governmentwide, just as DOD and State are, but we will have a 
special role.
    Mr. Connolly. But given that fact, Mr. Mikowicz, doesn't it 
make sense for you to chair it?
    Mr. Mikowicz. I am sorry?
    Mr. Connolly. Given that fact that you're looking at it 
agencywide--Federal agencywide, does it make sense OPM chair 
that interagency working group?
    Mr. Mikowicz. I would say OPM needs to have a leadership 
role, and we will do that. We will vet proposals with the 
agencies. Some of our proposals might be guidance, but if 
there's a legislative proposal--obviously we work with OMB, and 
all agencies get a chance.
    Mr. Connolly. Thank you.
    Ms. Farrell.
    Ms. Farrell. Thank you, Mr. Connolly.
    Our report had 10 recommendations, and the first 
recommendation was directed at OPM to lead such a comprehensive 
review as requested last year by the Oversight and 
Investigation Subcommittee of the House Armed Services 
Committee to determine if legislative changes were needed. And 
we don't want to not give credit to OPM and especially with DOD 
for the meetings that they have had to try to organize such a 
review, but we do think it's time for OPM to step up and have 
the leadership role.
    As you may know, strategic human capital management has 
been on GAO's high-risk list since 2001, and it has remained on 
that list. Our most recent list was January 2009, where we 
noted that leadership was needed in this area of human capital 
reform to make sure that there was a level playing field. And 
there is much concern about the number of pay systems that we 
are talking about today that often result in differences, and 
the amount of pay or what pay one receives, and this is a 
responsibility of OPM where they could step up and show the 
leadership role.
    Mr. Connolly. Thank you.
    Ms. Fitzgerald.
    Ms. Fitzgerald. Yes. I would like to add to this. I think 
the spirit of that recommendation is now in full play, because 
OPM, Department of State, and the Department of Defense are 
coming together, and including OMB actually, jointly. It is 
almost a triumvirate of leadership. So I think your concerns 
about having OPM in the lead have been addressed through this 
interagency working group. They're working as full partners, 
full leaders in this, and issues such as the disparities in pay 
systems are being addressed through the proposals that we'll be 
sending through Congress.
    Mr. Connolly. Thank you.
    Let me ask again, Mr. Mikowicz and Ms. Farrell--and we're 
probably going to have to break after this. Increasingly, we 
are using term-limited employees, Notice 3161 employees. One of 
the concerns I would have and I think the subcommittee would 
have is, with the best of intentions, what happens to those 
folks should they suffer a medical condition in the service of 
their country and/or should PTSD, posttraumatic stress 
syndrome, occur or make itself manifest long after the 5-year 
term is over? We know that if you were in the military, we'd 
deal with that. But if you're a limited-term employee of 3161, 
presumably we would not unless there's special provisions for 
that. So I wonder if you would comment on that.
    Mr. Mikowicz. Well, I can say that's one of the issues 
we're looking at. GAO did start with pre- and post-deployment 
assessments, but obviously there's traumatic injury and other 
benefits, and those are on the table for discussions. We just 
haven't reached an administration position yet, but we are 
concerned.
    Ms. Farrell. Again, this is one of our recommendations. 
Much is to be learned from DOD in this area of how they have 
tracked their military personnel and conducted the pre- and 
post- and now the reassessments after deployment. It is a 
lessons learned, I think, from DOD of what should be with the 
civilians, because, as we noted in our statement, many of the 
civilians do not have assessments after deployment, and, as you 
mentioned, posttraumatic stress disorder often shows up 6 
months after they return.
    Mr. Connolly. We are going to have to vote, and we have 
five votes. The first one is a 15-minute vote. That's the one 
right now. And then there are four 5-minute votes, presuming 
that's it, and hopefully that's it for the day in terms of 
votes. So bear with us. It is going to be about maybe 
sometime--quarter after, roughly, if you can hang in there with 
us, because I think there's a lot more we'd like to get to and 
talk about. Forgive the interruption, but as I said, it's the 
nature of the beast here. I appreciate your indulgence.
    Obviously, one of the things we are going to want to talk 
about is the unevenness of how we are treating men and women 
who serve overseas, and what services are allowed and what 
services are made available by sufferance, and what, if any, 
changes we ought to make to try to move toward a uniform policy 
and make sure that quality services are available to our men 
and women who serve overseas. I also want to get back to the 
problem of time lags on claims and complaints.
    Mr. Hallmark. Before you go, though, I just might note that 
if--the 3161 employees you were just referring to are, I 
believe, Federal employees, so they have FECA coverage 
regardless of the limitation of their appointment. And that 
coverage would continue in perpetuity for the latent diseases 
such as PTSD.
    Mr. Connolly. OK. We will come back. This hearing is in 
recess until our votes are over and we recall the hearing. 
Thank you.
    [Recess.]
    Mr. Connolly. The hearing is reconvened. I hope you had a 
chance in the brief interval to address the subject at hand. 
Rhode Island is neither a road nor an island. Welcome back. 
Forgive us for the length of voting on the floor of the House 
of Representatives, but it is always a little unpredictable. 
So, anyway, welcome back.
    We were discussing 3161 term employees, and I wonder, Ms. 
Farrell, if you might comment from GAO's perspective on the 
deployment of term employees and the issue, I think Mr. 
Hallmark had indicated, that they had health care benefits in 
the event of PTSD showing up, for example, years later. I 
thought the words you used were in perpetuity; is that correct?
    Ms. Farrell. That is our understanding as well. What has 
been conveyed is correct about those temporary employees.
    Mr. Connolly. Combat-related or environment-related. 
Obviously they don't have health care benefits in perpetuity.
    Ms. Farrell. Correct.
    Mr. Connolly. Could you expand?
    Ms. Farrell. Let's take DOD's memo regarding non-DOD 
employees who have compelling reasons for care would be 
eligible for that at military treatment facilities. So they 
would fall into that temporary, whether they served for less 
than 180 days or more than 180 days. Despite the 
classification, they would be eligible for certain care.
    Mr. Connolly. Eligible, but let me turn to Ms. Fitzgerald 
then in response to your response. It was my understanding that 
is still up to DOD whether somebody who is not a DOD employee 
would actually have the benefits of a DOD facility and that is 
being determined on a case-by-case basis at the moment; is that 
correct?
    Ms. Fitzgerald. That is correct. So in the case I think 
where we are, for those who are under the 3161 authority who 
are not DOD employees, and even those who are DOD employees, 
fall under the worker's compensation program. And so for life 
they have access to medical care, free of charge, if you will, 
if it has been determined to be covered by this, at their own 
private medical care facilities. If they are DOD, 3161s, there 
is an added benefit that they do and they can since they were a 
former DOD employees have access to our military treatment 
facilities.
    Mr. Connolly. So let me get this straight. If I am a 
Department of Agriculture employee, I am sorry, if the 
Department of Agriculture hires me as a 3161 term limited 
employee, I am limited for a 5-year term; is that correct?
    Ms. Fitzgerald. Correct.
    Mr. Connolly. OK. I am deployed to Afghanistan to help in 
the poppy eradication program and the crop substitution 
program, and I am unwittingly witness to, and involved in, 
hostile fire, some kind of traumatic incident. I am not hurt. I 
get on with my business. As a matter of fact, I resume my 
duties in Afghanistan, and when my term is up I feel fine. I 
come home. Ten years later, out of the clear blue, I am 
shopping at the mall, and all of the sudden I hear a loud noise 
and I am back in Afghanistan, and all of the sudden I am not 
the person my wife thinks I am, and neither am I, and clearly I 
need some help.
    Am I eligible still for Federal medical care and where do I 
go as a non-former DOD employee who was hired by DOA, not DOD? 
Anybody?
    Mr. Hallmark. Well, if I can interrupt----
    Mr. Connolly. You are not interrupting; you are answering.
    Ms. Fitzgerald. Do you want to take the answer?
    Mr. Hallmark. Sure. The individual in the example you give 
would have the opportunity to file a claim under FECA if they 
learn of the connection between this condition that has evolved 
10 years later and their employment and they file the claim 
within I believe it is 3 years of the time they knew or should 
have known of that connection. So there is plenty of space for 
that person to be able to come forward and file a claim. It 
would then be adjudicated by OWCP to determine whether, in 
fact, there was a causal relationship between that medical 
condition and the events that occurred in Afghanistan. And if 
there was, then that, as Ms. Fitzgerald indicated, then 
benefits for that condition would be paid 100 percent by the 
Department of Labor.
    The issue that would arise, and that probably is of concern 
to the folks at the table, is making sure that people know that 
they have that capability, because if they are a temporary 
employee and they have gone off to work somewhere entirely 
different--they are no longer within the Federal civilian 
structure--there would be a need to make sure that people, as 
they are exiting out of that position, have knowledge about 
what they are eligible for in the future.
    Mr. Connolly. Mr. Hallmark, if I could stick with the 
example I had and your response to it, under the example we are 
both talking about, but I would be sent--you may or may not 
approve the claim I submit, but it would be a claim to a 
private provider.
    Mr. Hallmark. It would be a claim to the Federal 
Government, and the individual's medical treatment would be 
through a physician of their choice.
    Mr. Connolly. Yeah, but----
    Mr. Hallmark. It would not be military.
    Mr. Connolly. But my physician is not an expert in post-
traumatic stress syndrome. That expertise, by and large, 
resides in the military side of medicine in this country, not 
the civilian side of medicine. Most hospitals in America don't 
have in-depth experience with combat-related PTSD. So why would 
you limit me to my private physician or a series of private 
physicians who have no expertise in my problem, which was 
acquired because of my experience in a military combat 
environment, a civilian employee nonetheless?
    Mr. Hallmark. The Labor Department doesn't limit the 
civilian's ability. We simply will pay for the physician that 
you choose.
    Mr. Connolly. I choose to get the best expertise in the 
world, which happens to be in a military health care facility.
    Ms. Fitzgerald. Then, sir, this policy----
    Mr. Connolly. You need to speak up, Ms. Fitzgerald.
    Ms. Fitzgerald. Then the policy that Ms. Farrell talks 
about would apply. Then the individual would have to come to 
DOD and request a special permission to use the military 
treatment facility for their continued care.
    Mr. Connolly. But there is no policy going forward that 
would guarantee 10 or 15 years hence, and we still have Vietnam 
veterans 30 years later suffering PTSD. So right now the policy 
is on a case-by-case basis, and frankly, it is at your 
sufferance; it is not my right. It is at your sufferance.
    Ms. Fitzgerald. That is correct.
    Mr. Connolly. You are being generous under those rules in 
saying yes to most cases who apply, but there is no guarantee 
20 or 30 years hence you will continue that policy.
    Ms. Fitzgerald. That is correct.
    Mr. Connolly. Whereas, if I were in the military and had 
the same symptoms at the same time--in fact, everything I 
described applied to me wearing a uniform or having worn it, 
then by entitlement I would have access to military care and 
the expertise of post-traumatic stress syndrome intervention.
    Ms. Fitzgerald. That is true. But the Department has 
always, as long as we can trace this back, has always provided 
for the exception for individuals to come into the military 
treatment facility if they needed care.
    Then there are a couple of things that are happening that 
might be helpful, too. They are not perhaps adequate 
substitutes, but we are setting up the centers for traumatic 
brain injury, and one of those centers is a repository of where 
physicians and employees can go to get the latest information 
on care and so on. So that may be helpful as a resource center, 
and certainly the Department has and continues to make 
available its knowledge and transports knowledge across the 
civilian community in these cases.
    And then--for now, that is what the policy is, that they 
would come to the Department of Defense and seek special 
permission to come into a military treatment facility. I have 
not been aware of any that we have denied.
    Mr. Connolly. Professor Browning, we have talked about a 
lot of subjects. Anything you wanted to comment on in terms of 
the range of questions, albeit with an interruption?
    Mr. Browning. I just admit that I have only been on the job 
less than 2 months, so I am not an expert by any means in the 
full scope of what we as a department do. I have, in 
preparations for this testimony, have been educating myself on 
it, and I am learning the difficulties that are out there in 
tracking former employees.
    When an employee at the State Department retires, we give 
them a copy of their medical records if they ask for it. They 
sign the papers, they go away, and we don't hear from them 
again. We don't track them, we don't keep in touch with them, 
and they have no benefits accrued to them that we would have to 
offer them for their continued service.
    It is an excellent point that the expertise in dealing with 
PTSD is centered around veterans hospitals in Washington, DC, 
and quite frankly, the number of cases we have seen are so 
small--I think the total is six for the universe of our 
population--that we right now haven't set up a program to 
address it beyond our tracking the employees.
    Ms. Fitzgerald. In terms of what the Department is doing to 
track our 3161s who have left us, we know that this has been a 
problem, those who leave us after short periods of service, how 
do we stay connected with them, and we do feel the obligation 
to do that, take that very seriously. When we stood up a new 
civilian readiness unit, we have built in the capability there 
to track those folks. So now all these post-deployment 
physicals, we have a place to track those who take part in 
these assessments. So we know who they are, and then we are 
taking on an outreach effort so that we stay in touch with them 
through their period of departure, even if we do it annually 
through a note that says, hi, we are still worried about you, 
we care about you, any services that you need, please feel free 
to contact us, to be very deliberate about it. But we had to 
install a separate organizational capability to do that.
    It still remains a challenge once they leave here.
    Mr. Connolly. Ms. Fitzgerald, let me ask you a question 
then, and I think in some ways it does come back, Mr. Mikowicz, 
to, frankly, OPM's abrogation of leadership in not chairing the 
Interagency group. But we have found that some Federal agencies 
were unaware of the fact that their employees could avail 
themselves of DOD services when they come back with service-
related medical problems, including injuries, which is a little 
stunning given the fact that they served, too, and why wouldn't 
they have available to them the same services as anybody else.
    So what proactively is DOD doing or planning to do to make 
sure that all Federal agencies are aware of the availability on 
an equal basis?
    Ms. Fitzgerald. We did three things. When the report first 
came out about making the communication more widespread and 
known and the benefit more known among our communities, we sent 
out a communication to our Federal agencies, and we did a 
briefing. We brought our Federal agencies in, and we provided a 
briefing to them about the benefits that are available. That 
was the first thing we did.
    The second thing we did, we institutionalized that 
communication effort and put it on our Web site so they could 
have access to it.
    And the third thing that we are doing is we have developed, 
or I am developing, ready to launch by the end of the month--
the end of October, I am sorry, it is a short PowerPoint 
presentation that takes someone through the process sort of in 
a way that speaks to them in more easily understood terms than 
perhaps the policy would. So that this PowerPoint presentation 
could be used in any forum where our Federal agencies are 
orientating, giving a pre-deployment orientation to their 
folks.
    We think the combination of those three efforts may be 
helpful in showing that this knowledge is institutionalized in 
all of our Federal agencies. We will be ready to roll out that 
training module, as I said, sometime in October.
    Mr. Connolly. I am sure that will be helpful because I am 
sure you are aware of the fact that the two individuals to your 
left actually represent agencies that were not aware of that 
fact. State Department and Department of Agriculture were not 
aware of the fact apparently, based on our information, that 
DOD offered this service and it was available to their 
employees when they came back. So I mean we have work to do.
    Ms. Farrell, from GAO's point of view, I think--I ask you, 
is this not a weakness in the system: lack of communication, 
lack of uniformity, different policies, different benefits, 
sort of a hodgepodge and even problems tracking how many of our 
employees, or as Mr. Mikowicz indicated, former employees, have 
in fact served and may or may not over some period of time 
needed to be tracked because, even if they don't need it today, 
they may in the future need medical help and services that is a 
future claim on the Federal Government?
    Your comment.
    Ms. Farrell. I think you have hit upon several of the 
issues that our report brings to light, especially that of 
identification and tracking. You probably noticed, and our 
report will note, according to DOD and State Department 
officials, over 10,000 employees have been deployed since 2001, 
and DOD has a more current number now, stating somewhere in the 
neighborhood of 41,000. This has been a challenge that DOD has 
been working on since 1995, and they have made some progress in 
trying to get a handle on it, but we still need to know about 
the other agencies, and you are exactly right. You need to 
identify them, track their movements. Issues can develop years 
after the deployment, and in order to have that communication, 
you have to be able to identify them and know where they are.
    Mr. Connolly. Thank you. And Mr. Mikowicz, I think--I hope 
that is a message to be brought back to OPM leadership because 
if OPM isn't going to take the lead in trying to create some 
sense of equity and uniformity across the board for our 
civilian work force serving in dangerous environments, who is? 
It can't be DOD. They have their hands full with their own 
challenges. I just think it has be somebody like OPM, and that 
is why I would hope that with the new administration, new 
leadership, the issue of chairing that interagency group would 
be revisited and swiftly.
    Mr. Mikowicz. We will certainly take this information back.
    Mr. Connolly. And because we have time and we have one more 
panel, I have one more question, and that has to do, Mr. 
Hallmark, among the GAO findings was one that is pretty 
stunning. Approximately 80 percent of deployed civilians who 
filed a claim with the Office of Workmen's Compensation 
reported experiencing problems. By the way, much higher 
satisfaction among those filing claims with DOD, nowhere near 
80 percent. What kinds of changes do you think are going to be 
necessary to try to bring that number down to something more 
satisfactory?
    Mr. Hallmark. I am not aware of the 80 percent satisfaction 
finding, but we are working, as I said in my comments, every 
day to try to improve the performance. FECA process is a joint 
interactive process that involves OWCP at Labor and the 
employing agency, and that is true wherever the injury occurs. 
I know it is something that we need to work together 
increasingly well to make the outcomes appropriate.
    As I said, one of the things that we have done is set up 
processes whereby we communicate out of our Cleveland office 
with the employing agencies where a claim has reached the point 
where we don't believe we can accept it so that we give the 
agency a chance to help us come to the right outcome. I think 
that is working. That may result in some cases the case taking 
a little longer than it would in the normal course, but we 
think that is the right outcome in that circumstance to make 
sure we get to the right answer.
    Mr. Connolly. Ms. Farrell, can you confirm for me, Mr. 
Hallmark indicated he was not aware of that 80 percent. That is 
a finding of the GAO study, is it not?
    Ms. Farrell. Yes. You are referring to the 125 of the 188 
claims that took significantly longer than the goal of 45 days, 
in some cases 20 percent longer than that. So, again, it dates 
back to the person filing the claim not having a clear 
understanding of what documentation is required so that when 
they do submit it, it is facilitated, and those particular 
claims that we broke down also were related to TBIs, which 
someone has a TBI it is very difficult I think for them to put 
the package----
    Mr. Connolly. Do you know what the comparable statistic 
would be for DOD?
    Ms. Farrell. No, I do not.
    Mr. Connolly. But not 80 percent?
    Ms. Farrell. Not 80 percent.
    Mr. Connolly. Ms. Fitzgerald.
    Ms. Fitzgerald. I don't know what the satisfaction rate is 
with the services at DOL. I can tell you that we have had by 
our statistics, in 2008 there was about a 50 percent increase 
in the swiftness in which the documentation was processed and 
received at DOL, and part of that goes to what Mr. Hallmark 
talked about. Some things have changed since the day the report 
was done by the GAO to fix the problems that were found at that 
time.
    Obtaining the appropriate evidentiary documentation is very 
difficult in a war zone and early on we learned that. These 
folks would come back and the physicians who even attended to 
them in the beginning were no longer even a part of the Federal 
Government. And so it was hard to go back and try and 
accumulate the documentation that was needed. So today there 
are systems in place to try and help gather that documentation, 
and with the intervention of the Federal agencies by allowing a 
little time for us to intervene before they deny a claim, 
allowing us to get in, help assemble that documentation, we 
have been able to help improve the processing and I think the 
outcomes for the individuals.
    Mr. Connolly. Thank you. And let me just say to all of you 
and to Mr. Hallmark in particular, you know, this is the 
Oversight and Government Reform Committee. We are at war. We 
are running two wars right now, and irrespective of how one may 
feel about that, the men and women who serve, whether they are 
in uniform or they are civilian Federal employees, are brave 
men and women who have answered the call of their country.
    In theory, you could have two people in a vehicle who are 
hit by an RPG or they hit an IED, one is in uniform and one is 
a civilian employee of Federal agency X. Both of them lose 
their left arm. Both of them are treated in field combat 
medical facilities with expert care. But one of them comes home 
to a military medical system, and the other does not 
necessarily. And over time, we have two different approaches to 
two different individuals who served the same purpose and were 
involved in the same accident with the same injuries.
    And there are issues of equity that flow from that, and 
fairness, and we want to make sure that at the very least there 
isn't a delay and that if we need to facilitate their having 
the evidentiary documentation they need, then let's help them, 
but 80 percent doesn't cut the muster.
    Final point, Ms. Fitzgerald, we get complaints from a lot 
of civilians who do have access to military medical care in 
these circumstances who, because of a bureaucratic snafu, 
however, cannot get the necessary credentialing to, in fact, 
have access to the base.
    Now, when I was chairman of Fairfax County, I had my own 
stickers on my car by virtue of that capacity for Fort Belvoir, 
and I wasn't seeking medical care daily or weekly. We need to 
facilitate these brave men and women's access to the base 
without bureaucratic hassle. And security is one thing; these 
people have been through hell and back. We need to help them.
    So I am going to count on you to please take that back to 
DOD. We don't want to be hearing about those kinds of problems. 
They have enough to manage without that.
    Ms. Fitzgerald. Absolutely. I think you will be happy to 
hear that we are going to be modifying the credentialing card 
that we give so that the back of it--they can have swipe access 
to the bases and so on. So hopefully we fix that problem.
    Mr. Connolly. I thank you all so much. Thank you for your 
forbearance in the schedule of the House of Representatives, 
and thanks for serving your country. We may be submitting some 
additional questions for the record and would appreciate your 
getting back to us. Thank you all very much.
    Our second panel--and I am going to read this while you are 
shuffling seats. We have two members on our second panel, Dr. 
Jonathan Shay, who is a clinical psychiatrist who recently 
retired from the Department of Veterans Affairs outpatient 
clinic in Boston, MA, my hometown, where he garnered eminent 
expertise in the treatment of combat trauma suffered by Vietnam 
veterans. In 2004 to 2005 he served as Chair of Ethics, 
Leadership and Personnel Policy in the Office of the U.S. Army 
Deputy Chief of Staff of Personnel. Dr. Shay is also the 
renowned author of ``Achilles in Vietnam: Combat Trauma and the 
Undoing of Character'' and has written more recently a book, 
``Odysseus in America: Combat Trauma and the Trials of 
Homecoming,'' and he promotes the adoption of policies to 
minimize future psychological trauma.
    Also serving on this panel is Ms. Susan Johnson. Ms. 
Johnson is the current president of the American Foreign 
Service Association and has served in Iraq as senior adviser to 
the Ministry of Foreign Affairs and in the Office of the High 
Representative in Bosnia and Herzegovina as Deputy High 
Representative and Supervisor of BrckoDistrict, and she 
recently served as senior coordinator in the front office of 
the Bureau of Democracy, Human Rights and Labor.
    Welcome both and if you would rise to be sworn in.
    [Witnesses sworn.]
    Mr. Connolly. I thank you. Let the record show both 
witnesses indicated in the affirmative.
    We have your prepared testimony, and I would ask that you 
summarize in the space of 5 minutes the basis of that 
testimony. Dr. Shay.

STATEMENTS OF JONATHAN SHAY, M.D., PH.D.; AND SUSAN R. JOHNSON, 
        PRESIDENT, AMERICAN FOREIGN SERVICE ASSOCIATION

                   STATEMENT OF JONATHAN SHAY

    Dr. Shay. Thank you, Mr. Chairman. I see that the ranking 
member is no longer here, so--I am, as you so kindly pointed 
out, someone who learned his chops from combat veterans as a 
psychiatrist in the VA. Veterans have been wonderful teachers. 
You were kind enough to mention my two books, and as much of an 
obsessed author as I am, I don't have to mention them again.
    The veterans have made me their missionary to the military 
forces on prevention of psychological and moral injury in 
military service, and it has been an amazing trip for me. In 
the course of it--and you mentioned that I have worked for 
General Jim Jones, now the President's National Security 
Adviser; for the Army G-1, the Lieutenant General Hagenbeck; 
and, most recently, an interesting gig at the Army War College.
    I am not a universal expert. I believe that what I have 
learned about soldiers and veterans probably has applicability 
to other populations, other folks who are going into harm's 
way.
    My riff to the military people as to how to protect their 
people is threefold: to provide for stable face-to-face 
community when going into danger. Train them together, send 
them into danger together, and bring them home together. It is 
not rocket science.
    The second is expert, ethical, and properly supported 
leadership.
    The third is prolonged cumulative training for actually 
what they have to do in trade.
    So my mantra is over and over: cohesion, leadership, 
training; cohesion, leadership, training, as the keys to 
preventing psychological and moral injury.
    Now, this is an easy sell to military folks because they 
are also combat strength multipliers. I do not know the world 
of the diplomat or the agricultural specialist or the person 
from the FBI assigned to some investigative duties in Iraq. 
People would have to make these translations for themselves, 
and in my written testimony I tried to use my imagination as to 
how non-DOD agencies might hear my words to the military for 
their own purposes.
    I apologize for any way these recommendations might be off 
base. It comes out of my ignorance. I am not a universal 
expert, but I do feel quite confident that some of the things 
that I say are of merit, and that is to always as far as 
possible to be thinking in terms of teams, that you are not 
deploying people to a war zone one by one by one by one, but as 
work communities.
    In the matter of leadership and policy or leadership 
policy, if you wish, I want to emphasize something that is 
probably counterintuitive, and that is that there needs to be 
policy on sleep. Sleep crops up again and again as a cause of 
psychological injury and something that keeps it going once it 
is established.
    Finally, on training, I would hope that our Federal 
agencies are making use of hostile environment training. I know 
that journalists sometimes get it. The BBC trains all their war 
correspondents. They give them hostile environment training, 
and that the teams, to the extent that they are deployed as 
teams, must cross train so they know each other's jobs. That is 
a very positive thing.
    Now, this is really good for the agencies to do this, not 
out of pure humanitarian impulse or a sense of responsibility, 
but it is good for you because terrible things happen when your 
employees acquire bad psychological injuries. And the worst of 
these are operational paralysis, desertion. People check out 
psychologically or physically, and unfortunately, there is 
always the potential for recruitment to extremist causes, 
people who carry these injuries.
    And I am not running the riff that somehow it is the 
political right that has a unique attraction. The sorry history 
of Weimar, Germany indicates that both the political right and 
the political left and the anarchists and the criminals are 
equally capable of recruiting people who are vulnerable to it 
because of their psychological injuries.
    [The prepared statement of Dr. Shay follows:]

    [GRAPHIC] [TIFF OMITTED] T5103.052
    
    [GRAPHIC] [TIFF OMITTED] T5103.053
    
    [GRAPHIC] [TIFF OMITTED] T5103.054
    
    Mr. Connolly. Thank you, Dr. Shay, and we will come back 
obviously to that thesis in questioning.
    Ms. Johnson.

                 STATEMENT OF SUSAN R. JOHNSON

    Ms. Johnson. Mr. Chairman, on behalf of AFSA and the 
employees of the member agencies, I thank you for the 
opportunity to speak before this committee on the subject of 
benefits for Federal employees deployed abroad. AFSA warmly 
welcomes the renewed bipartisan commitment to investing in our 
civilian diplomatic and development services.
    Key to that investment is ensuring that all of the men and 
women who are patriotically serving our country overseas, 
particularly in combat zones, whether military or civilian, are 
being taken care ofand receiving well-earned benefits, making 
the focus of this hearing both urgent and welcome. So thank you 
again.
    The GAO report on human capital highlights the major 
compensation equity issue facing members of the Foreign 
Service, the loss of locality pay when junior and mid-level 
members of our services are deployed abroad. This overseas pay 
gap represents a major inequity within our agencies. Junior and 
mid-level Foreign Service members now take a pay cut to serve 
at 183 of 267 overseas posts--that is 68 percent of them--which 
often effectively zeroes out the hardship and danger pay 
allowances for everyone except those at the senior levels.
    This problem faces Foreign Service personnel across the 
U.S. Government, not just at State, but also at USAID, the 
Foreign Commercial Service, the Foreign Agricultural Service, 
and the International Broadcasting Bureau.
    I am pleased to report that the first steps to resolve this 
issue through a phased approach over 3 years have been taken, 
but further authorization language is needed to finish the job 
by 2011. Completely closing this gap and ending a longstanding 
and divisive inequity remains a top AFSA priority.
    I would like to thank Secretary Clinton and Under Secretary 
for Management Pat Kennedy for their dedication and efforts on 
this issue and for working closely with AFSA to find a 
solution. And of course, we would like to thank the many 
Members of Congress that have helped correct this unintended 
inequity.
    Turning to the other recommendations of the GAO report, 
overall AFSA supports the recommendations that GAO made to the 
State Department in this report. We also agree with State's 
response and its action plan to implement these 
recommendations, particularly the mandatory medical screenings 
upon completion of assignment in a combat zone. Members of the 
Foreign Service should not have to worry about being able to 
receive the medical care they need while deployed abroad, 
particularly in war zones.
    AFSA agrees with the GAO that this policy needs 
clarification and encourages the Department of Defense and the 
State Department to coordinate and communicate the policy more 
clearly to employees deployed abroad.
    AFSA applauds State Department's new Deployment Stress 
Management Program [DSMP], a community-based program to support 
psychological health of members of our Foreign Service assigned 
to high stress, high threat, unaccompanied tours. We look 
forward to working with the State Department to ensure that 
DSMP continues to meet the needs of the Foreign Service.
    One area that the GAO report does not address, and that we 
would encourage this committee and the GAO to review, is 
support for dependents of Foreign Service members and other 
civilian employees who are deployed abroad at unaccompanied 
posts. We would like to see the services provided to family 
left at home brought more closely in line with those provided 
by the Department of Defense to military dependents in similar 
situations through the military one-source program.
    Thank you for the opportunity to testify and for your 
support. We appreciate your leadership in convening this 
hearing and AFSA hopes to continue to be a resource to you and 
this subcommittee in representing the views of the Foreign 
Service.
    I will be happy to answer any questions you may have.
    [The prepared statement of Ms. Johnson follows:]

    [GRAPHIC] [TIFF OMITTED] T5103.055
    
    [GRAPHIC] [TIFF OMITTED] T5103.056
    
    [GRAPHIC] [TIFF OMITTED] T5103.057
    
    [GRAPHIC] [TIFF OMITTED] T5103.058
    
    Mr. Connolly. Thank you so much, Ms. Johnson. I thank you 
both again for your testimony and your forbearance as well with 
the vicissitudes of House voting patterns. Our earlier 
information, by the way, was we weren't going to have any votes 
until about 4 p.m. and of course so much for that. We voted a 
little after 2:30.
    Let me ask you, Dr. Shay, first, and Ms. Johnson, your 
comments would be welcome, to what extent do Federal civilian 
employees have the same kinds of risks when they are deployed 
in the hostile environments as the military for psychological 
injury?
    Dr. Shay. Clearly, there are certain risks that they don't 
face. Every soldier faces the risk that he is going to fire his 
weapon at someone that he then realizes he shouldn't have and 
carries that on his soul for the rest of his life, and that is 
terrible, and civilian employees, unless they are armed, don't 
face that.
    But in terms of the general exposure, both to personal 
threat but also, so to speak, the moral exposure to witnessing 
terrible things happening to other people, whether it is them 
getting blown up or, A, is brutalizing, B, and nobody is doing 
anything about it and the awful things that people witness in 
war zones can sear people.
    Mr. Connolly. Well, in other words, putting aside the first 
example you gave, presumably somebody for a given department, 
civilian employee is probably not armed or may not be 
authorized to be armed, but the second example you gave, we 
could witness the same horror and have----
    Dr. Shay. Absolutely.
    Mr. Connolly [continuing]. Virtually the same impact on us 
emotionally?
    Dr. Shay. That is right.
    Mr. Connolly. Ms. Johnson, your take on that.
    Ms. Johnson. I would agree with the comments that Dr. Shay 
has made. Naturally, in some respects, the risks differ, but 
since World War II, 160 Foreign Service members have been 
killed in the line of duty, the vast majority of those as a 
result of terrorist attack, either blowing up of embassies, 
snipers, blowing up of cars or other attacks of the sort.
    In addition, certainly in both Iraq and Afghanistan, 
civilian members who are serving in PRTs and are serving all 
over the country face many, if not all, of the same risks that 
their military counterparts do and certainly witness much of 
the violence and, you know, danger experienced by the military.
    Dr. Shay. If I may adjust that, military officers face 
strain--moral strain and moral injury based on things that they 
know were done by other people on the basis of their decisions 
or the information that they gave to others, and I would not be 
surprised if there are analogous injuries in the Foreign 
Service world where people know they made decisions or gave 
information that led to a horrific outcome, unintended outcome, 
but they carry that with them.
    Ms. Johnson. I don't know to what extent this exactly 
relates to that--perhaps Dr. Shay would know better--but 
certainly we saw--and I served in Iraq from July through 
December 2003--and several of the Iraqis in the Foreign 
Ministry that I worked with were assassinated--targeted and 
assassinated directly as a result of visibly working and 
cooperating with us. So that is something that you do carry 
that here is someone that you have worked closely with and who 
has worked with the United States who is then assassinated as a 
result of that.
    Mr. Connolly. Sure. You could feel terribly guilty 
unwittingly putting someone in a terrible risk.
    Ms. Johnson. Exactly. Those are the things that you have to 
try to deal with.
    Mr. Connolly. Let me ask you a question. In light of that, 
the comparability of trauma exposure, when folks come home in 
the civilian work force, should they have available to them 
Veterans Affairs medical care? Should the VA be open to 
previously deployed Federal civilian employees?
    Dr. Shay. It appears to me that the VA or the vet centers 
were--as I have heard about for the first time today, I was 
unaware of this or the military treatment facilities. This is 
an obvious opportunity for Congress, should it wish to by 
legislation, to create that eligibility. That is sort of an 
obvious avenue for the Congress.
    Mr. Connolly. Ms. Johnson, any opinion on that matter.
    Ms. Johnson. Well, I think that having options generally, 
you know, increases the ability to handle whatever issues that 
you are facing. So I think it is good, to the extent that we 
are facing a very complex, difficult problem and, to a certain 
degree, some uncharted territory. So my instincts tell me that, 
in those cases, having options are better than not having them.
    Dr. Shay. And, as I mentioned in another option for 
Congress, some entity like the GAO could do a study of what 
kind of expertise is out there outside of the normal places to 
find it--the VA, the vet centers, the military medicine 
establishment--and where these people are. I am not suggesting 
that they create a directory, but I think it is important, 
given the need, that these data be gathered and analyzed so 
that we know what the resources are.
    Mr. Connolly. You both heard the previous discussion with 
your previous panel members, and I wonder what your take is. I 
mean, some of the resident expertise in the world on, for 
example, brain injuries is at Bethesda.
    Dr. Shay. That is correct.
    Mr. Connolly. Some of the resident expertise in the world 
on fitting of prosthetic devices, dealing with amputations and 
rehabilitation related to that, including the emotional 
management of both, is at Walter Reed.
    Dr. Shay. Brooke Army Medical Center.
    Mr. Connolly. That is right, or the Army Medical Center, 
exactly.
    So someone comes back from the State Department similarly 
injured with similar needs. He or she is, in theory, shepherded 
to the civilian side of medicine where comparable expertise 
does simply not exist.
    And, as you heard, the State Department and the Department 
of Agriculture who were at this table weren't aware, actually 
were not aware, of the fact that DOD had opened its door in 
these circumstances on a case-by-case basis at their 
acceptance--my words, not theirs--and they have been good about 
it.
    But if you don't know about it, you are not going to get 
the high-quality care available to your military counterpart 
who comes back a wounded warrior and veteran. I wonder what 
your observations would be about that situation.
    Dr. Shay. Well, it is something that one becomes very 
familiar with when dealing with combat veterans, and that is 
that it is a matter of luck and can be very capricious as to 
whether the injured veteran and the resources get together 
smoothly and quickly and effectively, or they pass each other 
like ships in the night, or they collide in some terribly messy 
crash and everybody gets hurt.
    So finding ways that this wonderful phrase, ``seamless 
transition''--that is a great line of public prayer. The hard 
part is making it actually happen and happen reliably.
    Mr. Connolly. Ms. Johnson.
    Ms. Johnson. I think it is excellent that the committee is 
focusing on some of these, I would say, over the horizon, but 
actually they are closer than that now. We are increasingly 
seeing civilians deployed in what we are calling, I guess, 
zones of armed conflict. It is inevitable, sadly, that more of 
them are going to be suffering various types of injuries, 
whether physical or psychological, moral, emotional.
    I think we need to be looking at what is the sensible and 
effective way to provide, you know, fair and equivalent 
treatment. I don't know if it is the same. As Dr. Shay said, 
maybe this would be a very suitable topic for, you know, a 
study to take a look at it and see what is the best solution.
    But the civilian side needs to be looking at what are we 
going to do to support our civilians who are serving in zones 
of armed conflict along with their military counterparts.
    Mr. Connolly. You all, AFSA, published its third annual 
poll about a year and a half ago now. Did you pick up anything 
in that poll in terms of attitudes of your members with respect 
to compensation and benefits while deployed in either Iraq or 
Afghanistan, on the quality of each?
    Ms. Johnson. Well, if I could quickly summarize sort of the 
main results of that poll--and I hope that we will have a 
chance to do a followup one in the not-too-far future--
certainly the pay disparity and the locality pay and the 
canceling out of hardship and danger pay was a top priority.
    Iraq and Afghanistan staffing concerns of a broad variety 
came a close second.
    Other things relate more to internal State Department 
procedures: unfair assignment and promotion policies. And one 
thing that maybe relates to this is a perception that the 
workplace in the foreign service is one of diminishing family 
friendliness and becoming more and more difficult to, you know, 
sustain or maintain family units and putting more and more 
stress on them, not just the members, the direct employees, but 
their dependants and their family.
    I don't believe that it addressed directly the question 
that you asked, but that could be something we could look at in 
the future.
    Mr. Connolly. Yes. On the family friendly thing, I earlier 
this year was on a trip to a country I won't name, whose 
Ambassador, U.S. Ambassador, was married to another U.S. 
Ambassador who was in a very different country in a very 
different part of the world. And it made you wonder. I am sure 
that is a good thing; I am glad we are tapping into their 
talent. But it has to be a strain on their marriage and their 
family.
    OK, Dr. Shay, I have to give you this opportunity. You have 
written two wonderful books. And if you were to write a third, 
``From Achilles to Odysseus,'' how would you compare the 
experience you document on Vietnam? I mean, what are the 
differences and similarities with the experience we are now 
experiencing in Iraq and Afghanistan compared to Vietnam?
    Dr. Shay. Well----
    Mr. Connolly. Don't write the third book here, but give us 
sort of a preview.
    Dr. Shay. I have a third book that is really for military 
professionals and policymakers called ``Trust Within Fighting 
Forces'' that has been hanging around my neck like an 
albatross, and I am trying to get it off its bottom.
    But I am the guy that said war is war is war is war, and it 
hasn't changed in 3,000 years as far as what matters in the 
heart of the soldier. And the obstacles to returning to 
civilian life, many of those haven't changed in 3,000 years. As 
long as humans pursue this hideous practice of war, it is going 
to hurt people, physically and psychologically. And we have to 
protect them as best we can and heal them as best we can when 
they do get hurt.
    Mr. Connolly. Anything in particular strike you as either 
absolutely similar to or absolutely different from the previous 
experience in Vietnam when you are looking at it?
    Dr. Shay. The climate in Vietnam is very different than the 
climate in Iraq and Afghanistan, or at least most parts of it. 
I think there are some quite tropical parts of Iraq. But, 
honestly, not much strikes me. I don't know of anybody who 
talked about the dust storms in Vietnam.
    Mr. Connolly. I guess I was getting at not so much the 
difference in climate and geography as the similarities or 
differences in trauma or injuries suffered by our----
    Dr. Shay. Well, insurgencies are wicked hard on the 
combatants, in that the enemy is intentionally blurring the 
distinction between armed combatant and, ``legitimate'' 
targets, necessary targets, and protected persons, to use the 
terminology of the law of warfare.
    I think it is clear in this conflict, as it was in Vietnam, 
that the distinction between a legitimate target and a 
protected person means everything for the future mental health 
and moral integrity of the person who has been in war. And 
those people who glibly say, ``Oh, there are no rules in war,'' 
don't understand the heart of the soldier. They don't want to 
know themselves to be murderers.
    And I know for a fact that this is the point of view of our 
military leadership today. I just, a couple weeks ago, spoke to 
the commanders' conference at the 101st Airborne. And they made 
it very clear that the moral dimension of what they do is 
critically important to them. And I, for one, stand up and 
cheer, because it is what will protect their mind and spirit.
    If I can just make one comment about what we have heard in 
the previous panel, I got a clarification on the fly about this 
41,000 civilians number. And I am told that is 41,000 
Department of Defense civilians. So this number does not 
include any other Federal employees, No. 1. And, No. 2, it 
totally leaves out Federal contractors who are working either 
directly under Federal contracts or are working for 
subcontractors.
    Mr. Connolly. Right. And that number could be in the 
hundreds of thousands.
    Dr. Shay. So the population that we are talking about is 
not 41,000; it is much larger.
    Mr. Connolly. Very good point. Because we know that there 
are AID folks and contractors associated with that. We know 
that there are Department of Agriculture people, Department of 
Labor people, so forth and so on. So there are lots more than 
just the 41,000 that serve with DOD.
    I want to thank you both so much for sharing today and your 
thoughts. If you have additional material you want to submit 
into the record, we would be delighted to have it.
    And I want to thank you again for your forbearance with our 
schedule today. It is very helpful to this committee and to the 
subcommittee.
    We stand adjourned.
    [Whereupon, at 5:15 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T5103.059

[GRAPHIC] [TIFF OMITTED] T5103.060

[GRAPHIC] [TIFF OMITTED] T5103.061

[GRAPHIC] [TIFF OMITTED] T5103.062

[GRAPHIC] [TIFF OMITTED] T5103.063

[GRAPHIC] [TIFF OMITTED] T5103.064

[GRAPHIC] [TIFF OMITTED] T5103.065

[GRAPHIC] [TIFF OMITTED] T5103.066

[GRAPHIC] [TIFF OMITTED] T5103.067

[GRAPHIC] [TIFF OMITTED] T5103.068

[GRAPHIC] [TIFF OMITTED] T5103.069

[GRAPHIC] [TIFF OMITTED] T5103.070

[GRAPHIC] [TIFF OMITTED] T5103.071

[GRAPHIC] [TIFF OMITTED] T5103.072

[GRAPHIC] [TIFF OMITTED] T5103.073

[GRAPHIC] [TIFF OMITTED] T5103.074

[GRAPHIC] [TIFF OMITTED] T5103.075

[GRAPHIC] [TIFF OMITTED] T5103.076

[GRAPHIC] [TIFF OMITTED] T5103.077

[GRAPHIC] [TIFF OMITTED] T5103.078

[GRAPHIC] [TIFF OMITTED] T5103.079

[GRAPHIC] [TIFF OMITTED] T5103.080

[GRAPHIC] [TIFF OMITTED] T5103.081

[GRAPHIC] [TIFF OMITTED] T5103.082

[GRAPHIC] [TIFF OMITTED] T5103.083

[GRAPHIC] [TIFF OMITTED] T5103.084

[GRAPHIC] [TIFF OMITTED] T5103.085

[GRAPHIC] [TIFF OMITTED] T5103.086

[GRAPHIC] [TIFF OMITTED] T5103.087

[GRAPHIC] [TIFF OMITTED] T5103.088

[GRAPHIC] [TIFF OMITTED] T5103.089

[GRAPHIC] [TIFF OMITTED] T5103.090

[GRAPHIC] [TIFF OMITTED] T5103.091

[GRAPHIC] [TIFF OMITTED] T5103.092

[GRAPHIC] [TIFF OMITTED] T5103.093

[GRAPHIC] [TIFF OMITTED] T5103.094

[GRAPHIC] [TIFF OMITTED] T5103.095

[GRAPHIC] [TIFF OMITTED] T5103.096

                                 <all>

</pre></body></html>
